<html>
<title> - A DHS INTELLIGENCE ENTERPRISE: STILL JUST A VISION OR REALITY?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



     A DHS INTELLIGENCE ENTERPRISE: STILL JUST A VISION OR REALITY?

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2010

                               __________

                           Serial No. 111-66

                               __________

       Printed for the use of the Committee on Homeland Security



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                              __________


                  U.S. GOVERNMENT PRINTING OFFICE
63-090 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP Washington, DC 
20402-0001
















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Steve Austria, Ohio
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Laura Richardson, California         Paul C. Broun, Georgia
Ann Kirkpatrick, Arizona             Mark E. Souder, Indiana
Al Green, Texas                      Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                    Thomas M. Finan, Staff Director
                        Brandon Declet, Counsel
                   Natalie Nixon, Deputy Chief Clerk
              Meghann Peterlin, Minority Subcommittee Lead



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                               Witnesses

Ms. Caryn A. Wagner, Under Secretary, Office of Intelligence and 
  Analysis, Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Mr. Bart R. Johnson, Principal Deputy Under Secretary, Office of 
  Intelligence and Analysis, Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................     9

 
     A DHS INTELLIGENCE ENTERPRISE: STILL JUST A VISION OR REALITY?

                              ----------                              


                        Wednesday, May 12, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Thompson, Clarke, 
Richardson, Green, Himes, McCaul, Dent, and Broun.
    Ms. Harman [presiding]. Good morning. The subcommittee will 
come to order. We are meeting today to receive testimony on the 
state of the DHS Intelligence Enterprise and the continuing 
efforts to improve intelligence and information sharing at the 
Department.
    Today's hearing is entitled, ``A DHS Intelligence 
Enterprise: Just a Vision or a Reality?'' I now recognize 
myself for an opening statement.
    Nearly 8 years ago this--excuse me. Nearly 8 months ago--
time flies--this subcommittee received testimony from then-
acting Under Secretary Bart Johnson, a career law enforcement 
officer, about his vision for the DHS Office of Intelligence 
and Analysis. The Chairman, who has just joined this hearing, 
and I were very impressed. In fact, I recall him saying, 
``Wow,'' as Mr. Johnson completed his oral testimony.
    Mr. Johnson's testimony set a new tone for information and 
intelligence sharing at I&A--one that embraced the key role 
that State and local police and sheriffs can play in 
encouraging an alert public to ``See Something and Say 
Something,'' or ``iwatch,'' as the LAPD campaign in my own 
Congressional district suggests.
    Mr. Johnson said, ``Every day across the country State, 
local, Tribal, and territorial law enforcement and other 
officials gather information in the course of their work of 
providing emergency and nonemergency services to their 
communities. This information may serve as the first indicator 
of a potential threat to our National security.'' Obviously 
these words became crystal clear last week with the 
apprehension of Faisal Shahzad, the would-be Times Square 
bomber.
    Mr. Johnson suggested that a number--a number of practical 
ideas for intelligence sharing, including a comprehensive 
outreach effort to make sure that intelligence products provide 
State, local, territorial, Tribal, and private sectors with the 
information they want, at the time they want it, and in the 
form they need it. He suggested creating a Single Point of 
Service program that handles information requests by State, 
local, and Tribal partners and developing an analytic 
capability and methodology for assessing suspicious activity 
reporting data.
    Mr. Johnson suggested that I&A should create baseline 
capabilities and help improve analytic capacity at State and 
major urban area fusion centers in order to support 
information-driven decision making by State, local, Tribal, 
territorial, and Federal homeland security and law enforcement 
officials. He nailed it, and this subcommittee has been waiting 
to see his vision become reality.
    Now that an under secretary has been named and confirmed--
and I am glad that Caryn Wagner is joining us today--we are 
meeting to evaluate I&A's progress. As I am sure is now clear, 
we believe I&A's core mission is to ensure not just horizontal 
sharing among intelligence agencies, but vertical information 
sharing up and down between the Federal and local government 
and law enforcement. This is our vision; I think this was Mr. 
Johnson's vision 8 months ago.
    Yet, the testimony today, in my view, seems more focused 
once again on I&A's horizontal relationships with other Federal 
intelligence agencies. I confess I am a bit disappointed, and I 
wonder whether we are pedaling backwards.
    We have recent and excellent real-life examples of how 
information shared with and by law enforcement can make all the 
difference. It was a beauty supply shop owner who provided key 
information that led to the unraveling of Najibulla Zazi's plot 
to blow up the New York subways. As we all know, two alert 
veterans alerted law enforcement to Shahzad's smoking vehicle 
planted in Times Square.
    An alert public and proactive police force will continue to 
make the critical difference, especially as terror tactics 
evolve. After all, they are the ones who know their communities 
best and will notice first when something odd is occurring.
    It should be clear that many terrorist groups and, alas, 
some homegrown terrorists want nothing more than to strike us, 
to cause physical and economic damage, and to make us fear 
them. They are not giving up.
    We will never be able to achieve 100 percent security, but 
we can certainly improve the odds. That is why we are here 
today. When Americans are prepared, not scared, they too can 
play a key role in keeping us safe.
    So, my question for both witnesses today is, are we going 
to implement the inspired vision we heard 8 months ago from Mr. 
Johnson? How are you both leveraging the eyes and ears of the 
public and local law enforcement to keep our communities and 
our country safe in an ever dangerous world?
    I welcome you both and look forward to your testimony.
    [The statement of Chair Harman follows:]
                Prepared Statement of Chair Jane Harman
                              May 12, 2010
    Nearly 8 months ago, this subcommittee received testimony from 
then-acting Under Secretary Bart Johnson--a career law enforcement 
officer--about his vision for the DHS Office of Intelligence and 
Analysis.
    The Chairman of the full committee and I were very impressed.
    Mr. Johnson's testimony set a new tone for information and 
intelligence sharing at I&A--one that embraced the key role that State 
and local police and sheriffs can play in encouraging an alert public 
to ``see something and say something'' or ``iwatch'' as the LAPD 
campaign in my own Congressional district suggests.
    He said: ``Every day across the country, state, local, tribal and 
territorial law enforcement and other officials gather information in 
the course of their work of providing emergency and non-emergency 
services to their communities. This information may serve as the first 
indicator of a potential threat to our national security.''
    This became crystal clear last week with the apprehension of Faisal 
Shahzad, the would-be Times Square bomber.
    Mr. Johnson suggested a number of practical ideas for intelligence 
sharing, including a comprehensive outreach effort to make sure that 
intelligence products provide State, local, territorial, Tribal and 
private sectors with the information they ``want, at the time they want 
it, and in the form they need it.''
    He suggested creating a ``Single Point of Service'' program that 
handles information requests by State, local, and Tribal partners and 
developing an analytic capability and methodology for assessing 
Suspicious Activity Reporting data.
    And Mr. Johnson suggested that I&A should create baseline 
capabilities and help improve analytic capacity at State and major 
urban area fusion centers in order to support information-driven 
decision making by State, local, Tribal, territorial, and Federal 
homeland security and law enforcement officials.
    He nailed it--and this subcommittee has been wanting to see his 
vision become reality.
    Now that an Under Secretary has been named and confirmed--I'm glad 
Caryn Wagner is joining us today--we are meeting to evaluate I&A's 
progress.
    As I'm sure is now clear, we believe I&A's core mission is to 
ensure not just horizontal sharing between intelligence agencies, but 
vertical: Up and down between the Federal and local government and law 
enforcement.
    Yet the testimony today seems more focused on I&A's horizontal 
relationships with other Federal intelligence agencies. I confess I am 
disappointed and wonder whether we are peddling backwards.
    We have recent and excellent real-life examples of how information 
shared with and by law enforcement can make all the difference.
    It was a beauty supply shop owner who provided key information that 
led to the unraveling of Najibullah Zazi's plot to blow up New York 
subways. And two alert veterans alerted law enforcement to Shahzad's 
smoking vehicle planted in Times Square.
    An alert public and proactive police force will continue to make 
the critical difference, especially as terror tactics evolve. After 
all, they are the ones who know their communities best and will notice 
first when something odd occurs.
    Terrorists want nothing more than to strike us, to cause physical 
and economic damage, and to make us fear them. They will not give up.
    We'll never be able to achieve 100% security, but we can certainly 
improve the odds. That is why we are here today.
    When Americans are prepared, not scared, they can play a key role 
in keeping us safe.
    My question for the witnesses today is: Are we going to implement 
the inspired vision we heard from Mr. Johnson? How are you leveraging 
the eyes and ears of the public and local law enforcement to keep our 
communities and our country safe?
    I welcome you both and look forward to your testimony.

    Ms. Harman. Now I yield 5 minutes to the Ranking Member for 
his opening comments.
    Mr. McCaul. Thank you, Madam Chair.
    I would like to welcome the witnesses, Under Secretary 
Wagner and Principal Deputy Under Secretary Johnson. We are 
delighted to see you here today. I hope you are equally as 
delighted to see me and Jane.
    I also want to praise--the communication between your 
office and with us on the committee has greatly improved, and I 
appreciate that. I hope you see this, as I do, as an 
opportunity for us to discuss some of the challenges faced by 
I&A and the DHS Intelligence Enterprise, and as an opportunity 
to work together to find solutions.
    Nidal Hasan is an American citizen who had contact with al-
Qaeda's Anwar al-Awlaki over the internet, and Federal 
authorities knew it at that time. But Hasan went on to brutally 
murder 13 innocent people at Fort Hood, just outside of my 
district, on November 5. No one ever told the base commander or 
Hasan's immediate superiors that they had a potential problem 
on their hands. That attack demonstrated a devastating 
information-sharing failure between the FBI and the Department 
of Defense, and in my questions I would like to expand upon the 
National fusion center and how this could potentially prevent 
any future Hasans from occurring.
    We had Abdulmutallab, the terrorist who trained with al-
Qaeda, whose violent radicalization was brought to the 
attention of the State Department by his own father. In 
addition, the NCTC had threat information coming in.
    Nevertheless, he attacked us--or attempted to--on Christmas 
day with a bomb that he brought onto an airplane. This wasn't 
just a failure to connect the dots and identify terrorist 
targeting the homeland; it has also shown a weakness in our 
ability to detect terrorists boarding airplanes with 
explosives.
    Mr. Shahzad, also an American citizen, tried to blow up 
Times Square in a terrorist attack just 11 days ago, and while 
law enforcement did an outstanding job identifying and 
apprehending him quickly, Shahzad showed us difficulties in 
updating watch list information to the airlines, as well as our 
vulnerability to individuals who simply are not on anyone's 
radar screen.
    The list goes on--15 terror plots within the past year. We 
are still under attack today as much as we were on the morning 
of September 11 and the subsequent creation of the Department 
of Homeland Security.
    We have been lucky. We have been very lucky. But that 
cannot be the basis of our homeland security policy. Next time, 
we may not be so lucky.
    A robust system of homeland security intelligence and 
information sharing must work, and I think we all agree that 
failure is not an option. We have come a long way over the past 
few years, particularly in the creation of a network of State 
and local fusion centers around the country, which has 
transformed information sharing between all levels of 
government.
    I know that the men and women at DHS are wholly committed 
and patriotic to their mission to do their very best to protect 
this Nation. But the Department of Homeland Security continues 
to be so burdened with internal troubles that it cannot fully 
execute its mission to keep the American people safe from 
terrorists, drug violence along the southwest border, threats 
of weapons of mass destruction, or to prepare for National 
disasters.
    Do we set ourselves up for failure by trying to fix all of 
the external problems DHS faces without DHS fixing itself 
first? In my view, I think we need to get the house in order 
first before we look to the external.
    Since its inception, the Office of Intelligence and 
Analysis has been plagued by a confused mission, low employee 
morale, hiring and retention problems, and an evolving 
organizational structure. To no one's surprise, this has 
resulted in poor analytical intelligence products.
    It is that reason, Madam Chair, I am grateful to you for 
holding this important hearing. We have an obligation to make 
intelligence and information sharing within DHS as robust as we 
want it to be between DHS and other Federal agencies and State 
and local partners. We have an obligation to look at what may 
be wrong within the Department itself that prevents it from 
being the best it can be.
    Recently--I think we need to give credit to the two 
witnesses--we have seen signs of improvement and are hearing 
good things. But we are still a long way from where we need to 
be.
    Just recently, Under Secretary Wagner, we had a very good 
meeting, I think, in my office, and I have high hopes that 
under your leadership that the DHS Intelligence Enterprise can 
realize the level of greatness that is required.
    With that, Madam Chair, I yield back.
    Ms. Harman. Thank you, Mr. McCaul.
    The Chair now yields 5 minutes to the Chairman of the full 
committee, Mr. Thompson, of Mississippi, for opening remarks.
    Mr. Thompson. Thank you very much, Madam Chair.
    Welcome, Ms. Wagner. I understand that this is your first 
appearance before the committee since your confirmation, as we 
had a chat one Sunday afternoon, but we didn't get a chance to 
see each other, so I am happy to have you.
    Mr. Johnson, it is always good to see you.
    As I am sure you have discovered, you have a particularly 
challenging position. As the under secretary for intelligence 
and analysis you must continue to build that organization, as 
you have said, to be trusted leader in meeting our Nation's 
homeland security intelligence needs.
    Simultaneously, as chief intelligence officer you must 
craft a strategic approach to support and leverage the unique 
intelligence capability of each of the Department's components. 
As you know, we created I&A 6 years ago in part to break down 
traditional stovepipes, set mission-based agendas, and develop 
an integrated Homeland Security Intelligence Enterprise. As I 
said in September and unfortunately must say again, we are 
still not there.
    Unfortunately, your I&A has never established a specific 
set of effective strategic plans that both describes and 
delivers results, measures those results, and helps course 
correct if or when those results are insufficient. Without such 
a plan I fear that I&A risks failing its unique opportunity as 
an intelligence coordinator for State and local consumers 
within DHS or for the intelligence community.
    Consider, if you will, the recent Times Square attack. We 
have all heard the successful contributions made by CBP to 
capturing Faisal Shahzad. They rightly are to be congratulated. 
However, absent from Congressional briefings has been what, if 
anything, I&A or DHS Intelligence Enterprise brought to the 
table, and we will talk a little bit about that.
    Further, the recent designation of Rand Beers as under 
secretary for the national protection and programs directorate 
as DHS's lead for counterterrorism raises questions about where 
you fit in the Homeland Security Intelligence Enterprise.
    Simply put, Ms. Wagner, I&A is at a crossroads. It has the 
potential to become the premier provider of information to 
homeland security intelligence consumers, but will only succeed 
if organizational ambiguity that I identified is addressed, a 
strategic vision in place, and a dedicated people who work for 
you can: No. 1, demonstrate specific results; No. 2, 
proactively embody the position--both inside and out of DHS--of 
a trusted leader in meeting our Nation's homeland security 
intelligence needs.
    I look forward to your testimony. Perhaps you can help 
clear the air on some of these issues.
    I yield back, Madam Chair.
    [The statement of Chairman Thompson follows:]
           Prepared Statement of Chairman Bennie G. Thompson
                              May 12, 2010
    Welcome, Ms. Wagner. I understand that this is your first 
appearance before the committee since your confirmation. As I am sure 
you have discovered, you have a particularly challenging position. As 
the Under Secretary for Intelligence and Analysis, you must continue to 
build that organization to, as you have said, ``be the trusted leader 
in meeting our nation's homeland security intelligence needs.''
    Simultaneously, as the Chief Intelligence Officer, you must craft a 
strategic approach to support and leverage the unique intelligence 
capabilities of each of the Department's components.
    As you know, I&A was created 6 years ago, in part, to break down 
traditional stovepipes, set mission-based agendas, and develop an 
integrated Homeland Security Intelligence Enterprise. As I said in 
September and, unfortunately, must say again, we are still not there.
    Unfortunately, your I&A has still never established a specific and 
effective strategic plan that both describes and delivers results, 
measures those results, and helps course correct if or when those 
results are insufficient.
    Without such a plan, I fear that I&A risks failing in its unique 
opportunity as an intelligence coordinator for State and local 
consumers, within DHS, or for the intelligence community.
    Consider, if you will, the recent Times Square attack. We have all 
heard of the successful contributions made by CBP to capturing Faisal 
Shahzad, rightly, are to be congratulated. However, absent from 
Congressional briefings has been what, if anything I&A or DHS's 
Intelligence Enterprise brought to the table.
    Further, the recent designation of Rand Beers, Under Secretary for 
the National Protection and Programs Directorate, as DHS' lead for 
counterterrorism raises questions about where you fit into the Homeland 
Security Intelligence Enterprise.
    Simply put, Ms. Wagner, I&A is at a crossroads. It has the 
potential to become the premier provider of information to homeland 
security intelligence consumers but will only succeed if the 
organizational ambiguity that I identified is addressed, a strategic 
vision is in place, and the dedicated people who work for you can: 
Demonstrate specific results and proactively embody the position--both 
inside and outside of DHS--of ``the trusted leader in meeting our 
nation's homeland security intelligence needs.''

    Ms. Harman. Thank you, Mr. Chairman.
    Other Members of the subcommittee are reminded that under 
the committee rules opening statements may be submitted for the 
record.
    I now welcome our witnesses this morning. Ms. Caryn Wagner 
was confirmed on February 11, 2010, as the under secretary for 
intelligence and analysis at the Department of Homeland 
Security. In this role she serves as the head of the Office of 
Intelligence and Analysis and as the chief intelligence officer 
for the Department.
    In her career she has served as the budget director for the 
House Permanent Select Committee on Intelligence, HPSCI, where 
I first met her, and she has also served in the office of the 
director of national intelligence as the assistant deputy 
director of national intelligence for management and for the 
first chief financial officer for the national intelligence 
program. Ms. Wagner spent many years with the Defense 
Intelligence Agency, most recently as the director of DIA's 
liaison to the United States European Command and NATO.
    Bart Johnson is the principal deputy under secretary for 
intelligence and analysis, and he was the acting under 
secretary for a period. Appointed on May 18, 2009 to the 
Department, he also served--well, I just mentioned that--as the 
acting under secretary.
    Prior to his appointment, Mr. Johnson served as the 
director of homeland security and law enforcement at the office 
of the director of national intelligence. His work focused on 
bridging the intelligence community with State, local, and 
Tribal customers.
    Before this, Mr. Johnson served as a colonel with the New 
York State Police and possesses over 30 years of law 
enforcement experience. I should add that the committee, I 
think, on a bipartisan basis, feels that the experience he 
brings to this position is enormously helpful, especially 
because our view is that the primary mission of I&A is 
information sharing on a vertical basis with State, local, and 
Tribal agencies.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask Secretary Wagner to summarize 
her statement for 5 minutes.

   STATEMENT OF CARYN A. WAGNER, UNDER SECRETARY, OFFICE OF 
   INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Ms. Wagner. Thank you very much, Chair Harman, Ranking 
Member McCaul, Chairman Thompson, other Members of the 
committee. I am very pleased to be here before you today for 
the first time. This is the 3-month anniversary of my first day 
on the job at I&A, and I am very happy to be here with Bart 
Johnson, who is my partner at I&A. As the Chair has already 
mentioned, Mr. Johnson's distinguished career and credibility 
with National and local law enforcement has made him an 
indispensible asset to the Department and to achieving the 
Department's goals.
    As has been mentioned, Mr. Johnson did an outstanding job 
as acting under secretary for 10 months, and he and I are now 
in the process of building on the foundation that he laid to 
hopefully take I&A to a new level and address some of the 
issues that you all have raised.
    I find the subject of this hearing--``DHS Intelligence 
Enterprise: A Vision or Reality?''--actually very appropriate 
since the major focus of both of our efforts has been on 
building a true homeland security enterprise. In fact, I think 
we see this as being two interlocking enterprising--one that is 
within the Department and one that is between the Department 
and all of its State, local, Tribal, territorial, and private 
sector partners.
    As the chief intelligence officer I am primarily focused on 
leading the effort to create that internal DHS enterprise, 
while Mr. Johnson is leading the effort to create the 
distributed homeland security enterprise, made up of the State 
and local fusion centers, who then all have their own 
enterprises at their--at the State and local level. So we are 
trying to create a fabric across the Nation.
    After 3 months on the job, I can say I have never been in 
an organization that has the broad range of customers and 
requirements that I&A does. We are responsible for supporting 
the Secretary and senior Departmental leadership, the diverse 
set of DHS operational components, the State, local, Tribal, 
territorial, and private sector partners, other Federal 
partners, and also the intelligence community.
    In order to provide the best intelligence support to that 
wide range of customers it is important that the intelligence 
activities of the components of the Department be synchronized. 
That is the job of the chief intelligence officer, or CINT, and 
it is accomplished largely through the Homeland Security 
Intelligence Council, or HSIC.
    The HSIC is made up of the intelligence chiefs of the 
components and other key elements of the Department, such as 
infrastructure protection and ops coordination. It meets 
regularly; it is supported by a staff to follow up on its 
actions; and it has undertaken and overseen many important 
tasks over the past year.
    It has overseen the production of the first ever 
Department-wide production plan to coordinate and deconflict 
analysis. It has overseen the process of developing and 
validating standing information requirements to be used to 
leverage the intelligence community on behalf of the components 
and the State and local fusion centers.
    It has also been used to charter, recently, a working group 
to standardize and streamline our process of homeland 
intelligence reporting across the entire Department, which 
requires standardization and improvement to make it more timely 
and useful, again, to our customers in the State and local 
fusion centers and in the intelligence community. We have also 
recently chartered a working group to improve--accelerate 
classified connectivity to the components along the border.
    So I believe that the HSIC is operating in a collegial and 
effective manner to improve the coordination of the 
Department's intelligence efforts, and I would like to point 
out that we actually have several key members of the HSIC 
present here today to support us, and they are sitting behind 
me, and I would like to call out Admiral Cindy Cougan, from the 
U.S. Coast Guard; Mr. Jim Woosley, from ICE; Mr. Don Crusetti, 
from Citizenship and Immigration Services; and Ms. Cindy 
Farkas, from TSA. I appreciate their willingness to be here in 
solidarity with us.
    As the CINT, I am responsible not only for coordinating 
current intelligence activities but also advising the Secretary 
on the overall intelligence posture of the Department to meet 
our future needs as defined in the recently completed 
Quadrennial Homeland Security Review. I recently received 
briefings from all of the components on their programs, and I 
will be advising the Secretary on my recommendations for the 
2010 budget bill process, and I am also working with the 
components to refine and justify their intelligence 
initiatives.
    A recent example, I think, of how the DHS enterprise 
operates is the new Silent Partner aviation security screening 
program that I know you are familiar with. While the details of 
the program are classified, it is an intelligence-driven 
program that significantly improves our aviation screening 
efforts.
    The program itself is the result of an outstanding 
collaboration between CBP and TSA, for which I&A takes 
absolutely no credit. But our role in this is to work with them 
and the intelligence community to brief the intelligence 
community on what is needed to support this program and to make 
sure that we have the processes and procedures in place to get 
that information to them on a timely basis. That partnership, I 
think, is emblematic of the enterprise and the way that it 
should operate.
    Another good example of where the enterprise is at work is 
along the southwest border, where we are working hard to 
improve the coordinated efforts of I&A, CBP, ICE, Coast Guard, 
and also the other elements, such as DEA, DOJ, and the 
Department of Defense, that are down there.
    So, two other quick things to highlight: We now are having 
a weekly intelligence VTC at the senior level with the 
components to make sure that we are on top of these very 
concerning threat streams and we are sharing our information, 
and I think that has been very helpful. We have also increased 
manning levels for the DHS Threat Task Force, which I believe 
you are familiar with, which is made up of elements from the 
components and I&A and is focused on keeping on top of those 
threats.
    So overall, I believe while we have still room for 
improvement, I think it is fair to say that the DHS internal 
enterprise is reality, and we are focusing our efforts to 
provide better products and support to the other part of our 
enterprise, which is the State and local part, which Mr. 
Johnson is now going to address, so I will turn it over to him.
    [The joint statement of Ms. Wagner and Mr. Johnson 
follows:]
    Joint Prepared Statement of Caryn A. Wagner and Bart R. Johnson
                              May 12, 2010
                              introduction
    Chair Harman, Ranking Member McCaul, and distinguished Members of 
the subcommittee, thank you for the opportunity to appear before you 
today to discuss the vision and goals for the Department of Homeland 
Security's (DHS) Office of Intelligence and Analysis (I&A). This is my 
first testimony before the Subcommittee on Intelligence, Information 
Sharing and Terrorism Risk Assessment since my confirmation on February 
11, 2010. I am honored to serve as the Under Secretary for Intelligence 
and Analysis and Chief Intelligence Officer for DHS. I look forward to 
working closely with this subcommittee and the Congress to lead and 
strengthen the critical intelligence mission of the Department.
        the office of intelligence and analysis strategic vision
    I&A's overarching vision is to be the trusted leader in meeting our 
Nation's homeland security intelligence needs. This vision drives our 
core focus of strengthening the Department's and our partners' ability 
to protect the homeland by accessing, integrating, analyzing, and 
sharing timely and relevant intelligence and information, while 
protecting the privacy and civil rights and civil liberties of all 
Americans.
    I&A's programs and activities align with the core DHS missions 
designated in our recently completed Quadrennial Homeland Security 
Review (QHSR). Intelligence and information sharing are identified as 
key activities for the Department in the QHSR. To that end, I&A plays a 
critical role to DHS' success in all of its core mission areas: 
Preventing terrorism and enhancing security; securing and managing our 
borders; enforcing and administering our immigration laws; safeguarding 
and securing cyberspace; ensuring resilience to disasters; and 
strengthening and maturing the Department.
    I have spent considerable time reviewing the roles, missions, 
functions and alignment of I&A since my confirmation in February. Much 
of my review has focused on what I&A must do to enhance its support to 
core customers at the Department and to its non-Federal partners at the 
State, local, Tribal, and territorial levels. I have also evaluated how 
I&A can improve upon the services that it already provides to the 
Intelligence Community (IC) and its interaction with Congress. I am 
focusing now on four main areas:
  <bullet> Creating a true homeland security information-sharing 
        enterprise through greater focus on the State, local, and major 
        urban area fusion centers;
  <bullet> Unifying and sustaining a DHS intelligence enterprise as the 
        Chief Intelligence Officer of the Department;
  <bullet> Producing first-rate analytic products tailored to the needs 
        of core customers, including to those not often served by 
        traditional members of the IC; and
  <bullet> Establishing the program management processes necessary to 
        improve the morale, efficiency, and professionalism of I&A as 
        an organization.
    In the last few months, we have made substantial progress in 
defining priorities, improving management processes, and determining 
the best structure for I&A to meet the goals that I have set forth. I 
would be remiss if I did not express my appreciation for the 
outstanding work and leadership of Principal Deputy Under Secretary 
Bart Johnson during his tenure as Acting Under Secretary; much of what 
I propose today builds on his foundational efforts. The following 
specific steps, already under way, will translate I&A's goals into an 
organizational and program-execution reality.
                     executing the strategic vision
    Two basic themes drive I&A's need for realignment: (1) The need for 
I&A to maximize support to core customers and; (2) the need for I&A to 
take better advantage of its collective resources.
    I have also identified areas in which we can improve I&A's 
organizational structure. I&A's proposed realignment consolidates 
similar activities, invests more resources in areas of required core 
competencies, and frees up existing resources for new endeavors.
    I&A's proposed realignment establishes four core offices, three of 
which are supervised by a Deputy Under Secretary: Analysis; Enterprise 
and Mission Support; and Plans, Policy and Performance Management; and 
the fourth by a Director of the Department's new Joint Fusion Center 
Program Management Office (JFC-PMO). The I&A Principal Deputy Under 
Secretary will have direct responsibility for overseeing the overall 
fusion center effort. We plan to forward a reprogramming action to 
consolidate the resources of the legacy State and Local Program Office 
(SLPO) into the JFC-PMO. We are also determining the relationship the 
JFC-PMO will have with the emergent National Fusion Center Program 
Management Office (NFC-PMO) directed by the White House.
    I will now describe in further detail some of the key initiatives 
underway that support the four focus areas previously described: (1) 
Supporting State and local fusion centers; (2) strengthening the DHS 
intelligence enterprise; (3) providing first-rate analytic information 
to core customers; and (4) improving I&A management and processes. 
These focus areas are the guiding principles under which I&A's goals 
have been established.
1. Supporting State and Local Fusion Centers
    A primary role of I&A is to share intelligence and information with 
our partners at the State, local, Tribal, territorial, and private 
sector levels. The State, local, Tribal, and territorial first 
responders and first preventers are the leading edge of the homeland 
security enterprise. The linchpin of our interaction with our non-
Federal partners is through stronger partnerships with State and local 
fusion centers. Fusion centers are a vital tool for strengthening 
homeland security, and it is I&A's job to work closely with State, 
local, Tribal, and territorial partners on some of the Nation's most 
pressing homeland security issues. Further strengthening this 
capability is a top priority.
    We are continuing to expand the level of cooperation and 
information sharing with our State, local, Tribal, and territorial 
partners via a robust network of intelligence and law enforcement 
agencies participating in State and local fusion centers. Secretary 
Napolitano approved the plan to implement the Joint Fusion Center 
Program Management Office (JFC-PMO) on March 15, 2010. The JFC-PMO will 
bring to bear all the Department's resources--not just I&A's--to 
support information sharing among State, local, Tribal, territorial, 
and Federal law enforcement partners, as well as to coordinate relevant 
support from all DHS elements, not just from I&A. The Department is now 
considering how the JFC-PMO will align with the White House's direction 
that DHS be the lead agency in establishing the National Fusion Center 
Program Management Office (NFC-PMO). I&A developed an implementation 
plan for the NFC-PMO with the assistance of State and local 
representatives and more than 15 Federal agencies. The implementation 
plan was widely coordinated throughout the Federal Government and will 
soon be sent to Secretary Napolitano for her review.
    To leverage the capabilities of our non-Federal partners, I&A has 
deployed 55 intelligence officers to fusion centers Nation-wide and 
plans to deploy a total of 70 officers by the end of fiscal year 2010, 
with the ultimate goal to deploy personnel to all 72 designated fusion 
centers and assign 10 regional coordinators to the field. I&A has 
installed the Homeland Secure Data Network (HSDN), which allows the 
Federal Government to share Secret-level intelligence and information 
with State, local, and Tribal partners, at 33 fusion centers. 
Additional centers are undergoing facilities certification to be 
accredited to house HSDN. This burgeoning network greatly expands two-
way information sharing flows between Federal and non-Federal homeland 
security partners. We are also partnering with the DHS Office for Civil 
Rights and Civil Liberties and the DHS Privacy Office to provide 
training to Federal, State, and local fusion center personnel, to 
ensure privacy, civil rights, and civil liberties are appropriately 
addressed in fusion center activities and products.
2. Strengthening the DHS Intelligence Enterprise
    I&A is continuing to take concrete steps to promote a unified, 
collaborative DHS intelligence enterprise. Our goal is to make 
intelligence activities at DHS more integrated, efficient, and 
effective, and to allow DHS, both headquarters and components, to give 
and receive better intelligence support. A critical tool in this effort 
is the Homeland Security Intelligence Council (HSIC), which I chair in 
my role as Chief Intelligence Officer. The HSIC is comprised of 
component intelligence leaders and other key officials representing a 
broad range of DHS activities that require intelligence support. The 
HSIC is focused on governance-level, DHS intelligence enterprise-wide 
objectives, such as overseeing the completion of the first coordinated, 
enterprise-wide analytic production plan, playing a leading role in 
reviewing DHS-wide protocols for disseminating Homeland Security 
Intelligence Reports and preparing a fiscal year 2012 consolidated 
intelligence budget recommendation to the Secretary.
    Another successful example of the power of the DHS intelligence 
enterprise is the DHS Threat Task Force (DTTF). The DTTF was 
established in the summer of 2009 to support the Zazi and Headley 
investigations. The DTTF is composed of I&A analysts and 
representatives from the DHS operational components and ensures that 
all the Department's information and expertise is brought to bear on an 
issue or investigation. Last summer, the DTTF provided information to 
the Federal Bureau of Investigation (FBI) on hundreds of additional 
individuals who were determined to be potentially relevant to specific, 
high-profile cases. DHS reactivated the DTTF on Christmas day, after 
the attempted bombing of Northwest Airlines Flight 253. We 
institutionalized this task force to focus and unify the efforts of the 
whole Department on mitigating terrorist threats to the homeland. These 
efforts have directly contributed to the effective use of watch lists 
and have supported Department programs for passenger travel analysis 
and airport screening procedures.
    I&A recently completed a comprehensive set of Standing Information 
Needs (SINs) that uniformly document on-going intelligence and 
information needs of the entire Department. These SINs improve DHS' 
ability to participate in the IC's collection management processes and 
the quality and quantity of information received in support of those 
needs, as well as the information I&A produces. In addition, since 
October 2009, our Collection and Requirements Division assisted more 
than 20 fusion centers in developing their own SINs, with the goal of 
improving the level of support they can receive from the Department and 
the rest of the IC. We are putting in place tools to ensure our 
analytic products adhere to information needs of both Departmental and 
non-Federal partners. These same SINs also provide the starting point 
for I&A's planning and performance measurement activities.
3. Providing First-Rate Analytic Information to Core Customers
    I&A's analytic programs now better align with the Secretary's 
priorities and the Department's SINs, and encompass those analytic 
topics that are most meaningful for homeland security. Our analysts--in 
partnership with National Counterterrorism Center (NCTC) and the FBI--
address threats to the homeland from both international and domestic 
terrorist groups and actors and also analyze terrorist tactics, 
techniques, and procedures to inform the development of protective 
measures at home. As a result of recent trends, I&A is working closely 
with its IC partners to develop a framework for analysis of homegrown 
violent extremism that is consistent with protecting privacy, civil 
rights, and civil liberties.
    I&A has primary responsibility within the IC to analyze, evaluate, 
and disseminate analysis on threats to homeland critical 
infrastructure. Through our robust relationship with the private sector 
and partnership with DHS' Office of Infrastructure Protection (IP), we 
routinely assess the impact of threats to industry and, with our IP 
partners, identify specific vulnerabilities and consequences that could 
result from terrorist attacks or other hazards. We are working with IP 
to improve the partnership and the utility of the products produced in 
this area.
    Our border and immigration security analysts focus not only on 
terrorist threats to the United States on or at our land and maritime 
borders, but also address trends regarding travel, asylum, and refugee 
issues and the rising violence on the Mexican side of the southwest 
border. I&A, in fact, uniquely supports the U.S. Government's efforts 
to identify, track, deter, and prevent terrorists from traveling to the 
homeland. I&A's role in preventing terrorist travel focuses on 
providing targeted intelligence analysis that leverages unique DHS 
databases and expertise, and on sharing information broadly within DHS 
and also with the U.S. Government and foreign partners. I&A plays a key 
role in monitoring changes to and effects of global immigration and 
travel security policies, provides direct support to DHS asylum and 
refugee programs, informs Customs and Border Protection targeting rules 
and Transportation Security Administration screening measures, and 
produces unique assessments on alien smuggling and illicit travel 
patterns in support of the IC and other customers.
    I&A also possesses a cyber intelligence analytic program. This team 
provides a National intelligence analytical framework in support of key 
cybersecurity customers, such as the DHS National Cybersecurity and 
Communications Integration Center (NCCIC), the DHS United States 
Computer Emergency Readiness Team (US-CERT), and the Industrial Control 
Systems CERT. We are working with partners in the community to 
collaborate on strategic cyber analysis, and we continue to determine 
the amount of analytic support necessary to the Department's 
cybersecurity mission.
    I&A also maintains expertise in the fields of health intelligence 
and chemical, biological, radiological, and nuclear (CBRN) issues to 
serve its Departmental, Federal, State, local, Tribal, territorial, and 
private sector partners. DHS is a co-founder, with the Defense 
Intelligence Agency, of the National Center for Medical Intelligence at 
Fort Detrick, Maryland, which focuses on a broad range of foreign 
medical risks that could threaten the United States. We use our 
combined research and analytic talents to produce all-source threat 
analyses on human health, agriculture, and food security to support DHS 
components--a recent example being the health intelligence we provided 
to support first responders' relief efforts in Haiti--as well as 
Federal, State, local, Tribal, and territorial government agencies and 
the private sector. Our analysis goes beyond just the science of health 
threats to address relevant foreign policy and socio-economic issues 
that could adversely affect homeland security operations and critical 
infrastructure and key resources.
    On CBRN issues, our experts collaborate with their IC partners on 
broad-ranging assessments and National-level exercises; provide the 
threat basis for risk assessments that drive DHS policy formulation and 
detection and response programs; and provide practical insights to 
State, local, Tribal, and private sector partners on CBRN indicators 
they might encounter in the course of their operational and law 
enforcement roles.
4. Improving Management and Processes
    To ensure that I&A is able to meet the broad range of its 
responsibilities, I am placing great emphasis on strengthening its 
planning, management, and performance oversight functions. I&A is 
making considerable progress developing fair and transparent policies 
and decision-making processes, aligning resources to priority missions, 
and assessing the efficacy of investments. I&A has established 
leadership-level policy, personnel, and resource requirements boards to 
improve the management of I&A's workforce, programs, and budget. As 
part of my commitment to improving management, policy development, and 
business processes, I&A's realignment proposal establishes a Deputy 
Under Secretary for Plans, Policy, and Performance Management (PPPM), 
as discussed earlier in this testimony. This new element will enable 
more streamlined and integrated strategic planning, programming and 
performance measurement, and budgeting life cycle processes. PPPM will 
further the Department's intelligence mission by providing DHS 
intelligence enterprise and Departmental information sharing management 
guidance by overseeing the Executive Directors of both the Homeland 
Security Intelligence Council and the Information Sharing Governance 
Board. For example, PPPM will be the focal point for our partnership 
with the DHS Chief Information Officer to improve Departmental 
information-sharing governance and establish enterprise-wide best 
practices.
    The new Deputy Under Secretary's responsibilities will include 
developing and unifying applicable strategies, plans, and policies for 
the entire intelligence mission cycle, leading to integrated DHS 
intelligence and information-sharing enterprises focused on mission and 
customers. PPPM will also develop a detailed I&A strategic action plan 
that will include a mapping of all organizational activities and 
performance management metrics to measure program execution and 
effectiveness. This, in turn, will institute valid metrics to measure 
success and create a systemic cycle that facilitates organizational 
improvement. Finally, it will serve as I&A's primary focal point for 
intelligence policy planning and representation of the intelligence 
mission to the rest of DHS, the larger IC, and the National security 
policy community.
    I&A's proposed Office of Enterprise and Mission Support is intended 
to centralize intelligence mission support functions for I&A, as well 
as the larger DHS intelligence enterprise. It is designed to maximize 
the effectiveness of our information technology knowledge management, 
counterintelligence, training, collection requirements, and external 
operations programs.
    Intelligence training is a critical capability that will enable 
fulfillment of I&A's strategic goals, and the proposed Office of 
Enterprise and Mission Support will build on existing I&A training 
successes. This program, which will be staffed by additional 
intelligence trainers, is intended to support the establishment of a 
culture of disciplined intelligence work in I&A.
                         immediate way forward
    These steps are a beginning, and I&A will undergo further 
refinement over time. I&A must--and will--continue to mature its 
management and business standards; move towards more proactive, 
collaborative and prioritized process planning and; ensure that all of 
its activities align with DHS missions and goals.
                               conclusion
    Members of the subcommittee, I appreciate the opportunity to appear 
before you today to discuss the strategic vision for I&A. I&A has made 
significant strides, and we continue to adapt ourselves to the 
continuing emerging needs of the Department. I&A has a vital and unique 
mission, and we will continue to improve our strategic posture to more 
effectively support core customers.
    I&A's efforts to gather, assess, analyze, and share intelligence 
and information will continue to be guided by the dual imperatives of 
protecting the country from those who wish to do it harm, and 
protecting our privacy, civil rights, and civil liberties. With your 
support, the leadership of Secretary Napolitano, and the fine men and 
women of I&A, I believe we can accomplish our goals and fulfill these 
imperatives. I look forward to keeping the subcommittee apprised of 
I&A's continued progress.
    Thank you for your time, and I look forward to your questions.

    Ms. Harman. Thank you very much.
    Mr. Johnson.

STATEMENT OF BART R. JOHNSON, PRINCIPAL DEPUTY UNDER SECRETARY, 
  OFFICE OF INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Johnson. Chair Harman, Ranking Member McCaul, and 
distinguished Members of the subcommittee, good morning, and 
thank you for this opportunity to appear before you today to 
hopefully discuss some very concrete and positive steps and 
activities that have occurred since my last appearance before 
you.
    When I appeared before you last September, I had 4 months 
under my belt, and you advised me that you wanted to see real 
progress made as it relates to interacting with our State, 
local, and Tribal partners. I took that direction very 
seriously, and I would now like to walk through with you some 
of those concrete examples.
    First and foremost, I am very gratified and happy, quite 
frankly, that after 10 months of being the acting under 
secretary there is now a Senate-confirmed under secretary 
seated to my right, Ms. Caryn Wagner. Ms. Wagner brings to bear 
a considerable amount of experience and credibility from the 
intelligence community.
    I have worked side-by-side with Ms. Wagner for the past 3 
months and have watched her embrace this role in both her 
capacity as the under secretary and also the CINT, and I can 
say with a great deal of confidence that we are partners in 
this effort to make this a reality.
    Ms. Wagner has empowered me and given me the leadership 
role within I&A regarding matters related to State, local, and 
Tribal law enforcement and which will, in turn, allow me to 
provide even more focus to this very important part of our 
National security enterprise.
    Over nearly, now, the past year I have come to appreciate 
the role of I&A, and in particular I would like to compliment 
all the employees who are working very hard within I&A, who 
have been so supportive to me personally and to the Department 
in all they have contributed. I, too, would also like to 
acknowledge the Members seated behind me from the component 
agencies who have really developed that kindred spirit of 
teamwork.
    So what have we done to implement, in a concrete example, 
some of the things that we spoke about back in September? We 
have taken very seriously the need to provide more timely and 
useful information to fusion centers, and I believe, based on 
the feedback that we are getting on a regular basis, we are 
making progress.
    We have made our bulletins reports more actionable and have 
developed, at your encouragement, new products that have been 
well received by the field. We have worked very closely with 
the Department of Civil Rights and Civil Liberties to provide 
training to fusion centers and make certain that we respect the 
rule of law.
    We have reinstituted the I&A fellowships program, and right 
now have a member from the NYSIC, the New York State 
Intelligence Center, assigned to I&A. We are also in 
partnership with the ODNI hosting our first ever fusion center 
directors course to be held in Monterey, California, in June 
2010.
    We have accelerated our deployment of analytical training 
to build those analytical centers of excellence. We have 
accelerated our deployment of HSDN secret connectivity, and 
also the deployment of I&A reps to the field. We are working in 
lockstep with the components, once again represented behind me, 
along the southwest border as it relates to integrating the 
HIDAs and the fusion centers into an information sharing 
environment and enterprise that could better protect the 
homeland.
    Obviously, to institutionalize these efforts we would need 
to ensure that not only these are words, but these are built in 
a very institutionalized and sustained way. So to that end, we 
have not only developed a Joint Fusion Center Program 
Management Office that is bringing together the Department-wide 
efforts, we are also building the National Fusion Center 
Program Management Office, which is going to be a nimble, lean 
group of individuals to bring the wealth of experience of the 
Federal Government.
    As evidenced by the terrorist activity of 2009 and thus far 
in 2010, the threat to the Nation is persistent, particularly 
as illustrated by Zazi, Hasan, Abdulmutallab, and now Shahzad. 
These incidents clearly illustrate that there are individuals 
overseas, and yes, now living within our borders, who have and 
do want to do us harm. Building the capabilities at the 
National Network of Fusion Centers and working with our Federal 
counterparts, it is now more important than ever to continue to 
build this enterprise.
    Based on my previous law enforcement interactions it is 
obvious to me that an alert law enforcement officer, 
firefighter, or other public safety personnel, or, as evidenced 
by the Times Square incident, the public will be the first to 
potentially identify a threat or suspicious activity, thereby 
making established relationships and institutionalized and 
practiced information sharing vital to our National security. 
It is our responsibility to provide these first preventers of 
the homeland the information they need, and I believe I&A is 
working very hard to do that, and that is our role and mission 
within the Federal Government.
    In conclusion, we have made some concrete steps to 
accomplish these goals. However, I know there is much more that 
needs to be done. With your support and the support of others, 
we within I&A will continue to work with our Federal partners 
to support State and local fusion centers along with the first 
responders to ensure that they are empowered to be a key 
defense and an integral part of our National security. Once 
again, I look forward to doing that in partnership with Under 
Secretary Wagner.
    Thank you, ma'am.
    Ms. Harman. Thank you very much, both of you. Thank you.
    We will now turn to questions. I will recognize myself 
first, followed by the Ranking Member, and then recognize 
Members for questions in the order that they arrived at the 
hearing. Mr. Thompson assures me that he will be back to ask 
questions.
    First, let me congratulate each of you for introducing the 
other as a partner. I think that is critically important.
    Ms. Wagner, you didn't miss it--certainly the noise 
emanating from me--that I thought it was critical that someone 
with law enforcement background occupy the position as head of 
I&A. I said that because people with that background 
instinctively and on the basis of experience understand how 
important vertical information sharing is. So now that you are 
in this position--and we welcome you--I am very happy that you 
embraced Mr. Johnson as a partner and that he embraces you as a 
partner. Good start.
    I am also happy, as you mentioned, that you are working 
hard on aviation screening. That clearly is a place where we 
may need to improve, based on the Christmas bomber experience, 
although, as you point out, CBP was a hero in making it work in 
the latest New York City bomber case.
    So congratulations on that. I will be at my home airport, a 
twice-intended al-Qaeda target, LAX, this weekend, and I plan 
to walk through with TSA and others, exactly what has changed. 
So I think that is hopefully an improving story.
    My question is based on my opening comments. I believe 
strongly--and I think my view is shared by others here--that 
vertical information sharing is the primary responsibility of 
I&A. Organizing better in the Department and having a chair at 
the table--the intelligence table--across the Federal 
Government are also tasks that have some urgency, but your 
primary mission is to get accurate, actionable, and timely 
information to local law enforcement, to a public consistent 
with helping them be prepared, and to the private sector, 
because many of the things that we fear could happen in private 
firms or by leveraging private sector assets.
    So my question to you specifically, Ms. Wagner, is: Do you 
agree that vertical information sharing is your primary 
responsibility?
    Ms. Wagner. Yes, ma'am, I do agree, understanding that 
information sharing goes both ways. I wholeheartedly agree with 
that, and I think that is one of the major authorities and 
responsibilities of this office.
    We need to make sure that the information flows down to 
allow those first responders and first preventers to do what we 
need them to do. But at the same time, we are expecting that 
valuable information that they are privy to to flow back up, 
because the point of the whole two-way flow is making the 
country safer, and the two-way flow is required in order for us 
to accomplish that.
    Ms. Harman. Thank you for that comment.
    Mr. Johnson, do you agree?
    Mr. Johnson. Yes, ma'am, very much so. In fact, as 
evidenced by Abdulmutallab and the fast-pacedness of that 
investigation and the concern about follow-on attacks, that 
information flow did occur. It is encouraging, also, to know 
that even some of the material that we were receiving had ready 
built into them tear lines, so we were much more readily 
available and able to pass to our partners to include the 
airlines.
    Conversely, the information flow up--that is why, through 
the PMO, the program manager's office, we need to continue to 
partner with the Bureau of Justice Assistance, who has the lead 
on the National Suspicious Activity Reporting Initiative, which 
was led in part by the LAPD with Mike Downing and Joanie 
McNamara. That is being continued to roll out, and we are going 
to partner with them, because as Ms. Wagner referred to, there 
is a lot of information out there, and it is the first 
responders who are going to touch it, and we need to have 
access to it legally and lawfully and then pass it up.
    Ms. Harman. I enthusiastically agree that information 
sharing--vertical information--is in two directions and just 
thought I would impart a bit of good news to all of our 
Members, and I hope to you too. This subcommittee was 
responsible for legislation on over-classification. Over-
classification is a problem because, as Cathy Lanier, who is 
the chief of the Washington Police, will tell you, sometimes 
they are afraid to share information up because they are afraid 
it will get classified--this is declassified information--and 
then their folks won't get access to it later.
    We passed, I thought, pretty responsible legislation out of 
the House, and that legislation has been taking a long time to 
get through the Senate. My understanding is yesterday or today 
the Senate Committee on Homeland Security finished its report 
on the legislation, and it will be hopefully on the Senate 
consent calendars soon in a form that it will pass here again. 
So soon we will be able to deal with this problem, and a 
subcommittee initiative that was bipartisan and unanimous, I 
hope, will become law.
    My time has expired. I now yield to Mr. McCaul for 5 
minutes.
    Mr. McCaul. Thank you, Madam Chair.
    I agree that vertical information sharing is very 
important. I also think horizontal sharing is important. When 
we looked at particularly the Hasan case and the Christmas 
bomber--and this is where I want to lead toward the National 
fusion center; I think this is a monumental task for you to 
pull this thing off, and who are the partners, and who will be 
sharing the information?
    We know that Hasan, as I mentioned in my opening 
statement--that the Joint Terrorism Task Force had information 
that he had been in touch with the cleric in Yemen, and yet 
none of that information was shared with the commander at Fort 
Hood, General Cohen, who I spoke with at the memorial service. 
``Wouldn't you have liked to have had that information?''
    ``Absolutely.''
    How many more Hasans are out there? We don't know.
    That is horizontal. How will this--and let's talk about the 
Christmas bomber.
    You have threat information coming in from the State 
Department that this father--his father came in to the embassy, 
warned them that his son was in contact with extremists in 
Yemen. At the same time, NCTC is getting threat information. In 
fairness to them, they are getting a lot of threat information 
every day, but that is, again, a horizontal issue.
    So how do you envision this National Fusion Center to work? 
Who will be the partners? Specifically, will DOD be a partner 
to that? How will this work to prevent--in those two cases, 
prevent something like that from happening again?
    Ms. Wagner. I think I will defer to Bart to answer the 
question on the National Fusion Center since he has been the 
person personally responsible for working to establish the 
plans with the White House, so I will turn that question----
    Mr. McCaul. Thank you.
    Mr. Johnson. Yes, sir. As it relates to the National Fusion 
Center enterprise, we are meeting with the--I actually met with 
Assistant Secretary Paul Stockton, DOD, and he shared a lot of 
your concerns as it relates to force protection. In fact, we 
are stepping out an opportunity to assist them, you know, with 
the special activity, to assist them with a force protection.
    Additionally, we are interacting with the high-intensity 
drug-trafficking areas to ensure that that horizontal 
information sharing is occurring; and also, obviously, building 
the capabilities and capacities of the fusion centers.
    As it relates to the information flow within the Federal 
Government, from FBI to DOD, I would really like to defer, you 
know, answering that, but suffice to say that the fusion 
centers need to be considered part of this fabric, part of this 
enterprise. They need to be trusted colleagues.
    They are secure space; they are secure connectivity; they 
have Federally-recognized clearances. So the Federal Government 
needs to look at them as partners and leverage them to share 
the information and make them better informed as to what to 
look out for and certainly what to report back into the system.
    Mr. McCaul. Mr. Johnson, as I understand it DHS has been 
tasked with the lead responsibility for the Nation in terms of 
the National Fusion Center. That is where I am concerned when 
you say, ``Well, I can't--this is DOD and FBI, Joint Terrorism 
Task Force,'' all that. How can we help you make sure that 
there is a proper level of information sharing between the 
Joint Terrorism Task Forces out there, the HIDAs, the 
Department of Defense, and DHS?
    Mr. Johnson. As it relates to deferring, I meant just the 
particular case facts. But to your point, yes, we have been 
given the lead based on Mr. Brennan's memorandum of 17 December 
putting the Secretary as the Executive agent for this National 
Fusion Center PMO.
    So the help that we could, you know, get from you, 
obviously, and we are already getting it, quite frankly, is, 
you know, to build that enterprise and once again illustrate 
the effectiveness of it, the supportedness of it, the need for 
sharing the information. We are partnering very well with the 
FBI. Deputy Assistant Director Eric Velez is a true partner in 
this.
    In fact, he came from the JRIC, the Joint Regional 
Intelligence Center, so he gets it; he is understanding it. I 
was in Florida. I am going out to California with him to really 
effectively show the SACs and partnerships with the fusion 
center directors about what could become of this once the full 
support of the Federal Government is put behind it.
    I am confident as this matures you are going to see more 
information percolating to the surface as relates to the 
observations being made in the field.
    Mr. McCaul. I know that I think the Chair agrees with me. 
We do want to work with you and help you in this effort because 
you have been tasked as a lead agency, and it is a monumental 
task. I think to give you the authority where you can go to the 
Department of Defense, or the Joint Terrorism Task Forces, or 
even, you know, the intelligence community, and say, ``Look, we 
are--I have the lead responsibility to protect the Nation and 
the homeland and you need to work with us.''
    Mr. Johnson. Thanks for that.
    Ms. Harman. I appreciate that last comment by Mr. McCaul. 
We have said often that we are your partners, we are not your 
adversaries, and we share exactly your goal. We actually 
represent the communities in which some future terror attack 
could occur, and we depend on you to work with us to make 
certain that, to the maximum extent, those in--people in those 
communities know what to look for and what to do and hopefully 
can prevent or disrupt a future plot, not just respond to it.
    I now yield 5 minutes to Mr. Broun.
    Mr. Broun. Thank you, Madam Chair.
    Under Secretary Wagner, Mr. Johnson, thank you so much for 
taking your time to be with us here today. In light of the 
recent bombing attempt at Times Square, I believe that this 
hearing is as timely as ever, and I thank you for your 
testimonies.
    There are media reports that the would-be Times Square 
bomber, Faisal Shahzad, appear at Government travel lookout 
lists, Travel Enforcement Compliance Systems, or TECS, between 
1999 and 2008 because he brought approximately $80,000 cash or 
cash instruments into the United States.
    TECS is a major law enforcement computer system that allows 
its approximately 120,000 users from 20 Federal agencies to 
share information. The database is designed to identify 
individuals suspected of or involved in violation of Federal 
law.
    My questions are for both of you. First, can you confirm 
the presence of Shahzad on the TECS lookout list?
    Ms. Wagner. Yes.
    Mr. Broun. Is TECS an effective way for DHS to be 
communicating the travel of suspicious people into the country?
    Ms. Wagner. I think I would answer that by saying that we 
have a very--we have a layered system to prevent travel into 
the country, of which that is one aspect. I think CBP's data, 
TSA's data and authorities interact very effectively on the 
aviation side--of land crossings at the border. So I believe it 
is an effective tool, but it is not effective by itself. It is 
effective when used in conjunction with a range of other--
training of the CBP and TSA people who are protecting our 
borders.
    Mr. Broun. What changes need to be made in order to ensure 
that DHS is identifying, tracking, and preventing terrorists 
from entering the United States?
    Ms. Wagner. I think we already have several efforts under 
way in response to recent events. In fact, I have already 
mentioned the Silent Partner program, which is already in 
effect. TSA is also working on putting in place a system called 
Secure Flight, which will improve our ability to quickly notify 
airlines of no-flies. I believe we are going to be attempting 
to accelerate the completion of that program in light of Faisal 
Shahzad's ability to get on the flight.
    So there are a lot of activities that are already under way 
to improve this, and we have, as we demonstrated, however, 
already a layered system of redundant efforts so that even 
though the airline had not updated its no-fly list we were 
still able to identify the fact that he was on the plane in 
time to get him off. So we will continue to ensure that we have 
that layered defense.
    I don't know if Bart has anything he would like to add.
    Mr. Johnson. The only thing I would like to add is the 
effectiveness of what Ms. Wagner referred to before, was the 
DHS Threat Task Force, which really was very much supported by 
the Homeland Security Intelligence Council seated behind us, as 
it relates to CBP, and ICE, and CIS, and Coast Guard, and TSA, 
and others, situating some of their best and brightest at the 
table with us within I&A. They provided a significant role and 
reached back not only to the components but keeping the 
Secretary very much informed to implement many of these things 
that Ms. Wagner just referred to as it relates to the 
concentric circles of intervention and support as we moved out.
    It was so successful, in fact, that it has been 
institutionalized by Ms. Wagner and made a permanent part of 
I&A, and we continue to look forward to working with the 
National Counterterrorism Center in support of what they are 
doing on a regular basis in partnership with the Department.
    Mr. Broun. Okay. Additionally, if Mr. Shahzad had brought 
those funds by way of a prepaid or a stored value card, which 
could be purchased in any convenience store, would he have been 
placed on the TECS list?
    Ms. Wagner. To be honest, I don't know the answer to that 
question, so I would like to get you a response for the record, 
if I could, unless Bart knows.
    Mr. Johnson. All I know is, you know, regarding that, we 
actually produced a product about the stored value cards in 
partnership with Immigration Customs Enforcement, so yes, we 
are aware of that new type of way to transmit. But I concur 
with Ms. Wagner that I won't have a specific answer to the 
question, but we will get back to you, sir.
    Mr. Broun. Thank you very much, Madam Chair, and I will 
yield back.
    Ms. Harman. Thank you, Mr. Broun.
    I would like an answer for the record. If this is possibly 
a loophole I think we would be very interested in working with 
you to fix it.
    Mr. Green is now recognized for 5 minutes.
    Mr. Green. Thank you, Madam Chair. Thank you so much for 
the hearing and the opportunity to speak. You are a part of the 
avant-garde when it comes to these issues, and I am eternally 
grateful that I have the opportunity to serve with you.
    I also thank the Ranking Member, who is a friend from 
Texas. Thank you for your efforts and for things that you do to 
help us as well. Nice to have two friends sitting so close to 
each other.
    I would like to start by complimenting the many persons 
that you work with. It is important for them to know that we 
have some great amount of appreciation for the difficult work 
that they do under unusual circumstances. Very difficult--very 
difficult.
    You do great work under adverse circumstances. If there is 
one thing that the New York circumstance called to our 
attention it is the importance of the vendor on the street 
working closely with the officer on the beat. That marriage, 
that integration of information, was crucial. It was critical, 
of paramount importance. For the two to work together to the 
extent that they did at a critical time made all the difference 
in the world. So we have to compliment them.
    I also want to compliment the people of New York, because 
unfortunately and unfairly, New Yorkers are sometimes depicted 
as persons who would just walk on by. I am appreciative that 
the vendor didn't just walk on by. I am appreciative that the 
officer had received proper training so that that information 
was passed on appropriately.
    With these things said, and complimenting the Chair for 
mentioning the vertical integration, Ranking Member for the 
horizontal integration, what are the chief obstacles to 
vertical integration of information and horizontal 
dissemination of information--the chief obstacles that you can 
call to our attention? I would like for each witness to answer, 
and I will defer to the lady first.
    Ms. Wagner. Thank you for that question, because we give 
that a lot of thought, especially in the wake of things that 
don't go exactly as we would have preferred them to go.
    I think the chief obstacle to horizontal integration tends 
to be, in the intelligence community side at least, what we 
call sort of signal to noise, which is not so much connecting 
the dots, but the fact that there is so much fragmentary 
information that it is very difficult to know at the time, 
until something happens to give you sort of hindsight, which of 
those pieces of information are significant enough to follow up 
on.
    That is just a continuing challenge that the community and 
the homeland security community will face, and we are working 
on putting in place. You know, the automation helps to a 
certain extent, but some of this is also, you know, people and 
training and mindset.
    One of the main improvements, I think, that is being made 
in the intelligence community is the idea of these pursuit 
groups, where we are charging people to take hold of a specific 
piece of information and follow it all the way through, to pull 
that string to find everything else, and to institutionalize 
that approach so that we don't have compartmentalization, you 
know, like, ``I am assuming that this guy here did something on 
this so I am not going to check to make sure it got done.'' We 
can't afford to do that. I don't know that that happens very 
often, but we can't afford to have it really happen at all. So 
the idea of pursuit groups, I think, is one way to get at that 
signal to noise problem horizontally.
    I think vertically--and I look forward to actually hearing 
what Bart is going to say on this--I think one of the 
challenges is one that the Chair has already mentioned, is 
classification and sort of ownership of data. We are working 
through those issues, but there is a lot of information that we 
have to push down and we have to figure out how to get it 
sanitized to move to lower classification levels and yet still 
make it useful enough for the State and locals that if we give 
it to them they can do something with it.
    So I would tend to say that those are at least two of the 
challenges, and then I will turn it over to Bart for his views.
    Mr. Johnson. Thanks for your comments about New York State. 
Having retired from the New York State Police a little while 
ago, and I have been involved in this since September 11, since 
2001, and ``See Something, Say Something'' actually originated 
in New York State, NTA Chief Bill Morange, and it is great to 
have a street vendor make that type of observation and report 
it.
    But what if, you know, it was during the planning stages 
and the acquisition stages and the storage stages? We need to 
make certain that that same citizen or police officer or first 
responder made that same report. So we need to institutionalize 
the processes associated with that, and I think that goes to 
the National Suspicious Activity Reporting Initiative and have 
a fusion center have the capacity and capability to receive it, 
analyze it, share it, and in the process, to pass it up to the 
intelligence community.
    I applaud Director Blair as it relates to his 
responsibility to provide as opposed to a need to know, so we 
always need to work from the premise of ``let's share it unless 
you could tell me otherwise'' as opposed to ``let's not share 
it and show me why we need to share it.'' I believe that we are 
stepping out in that regard.
    Some of the obstacles, obviously, you know, include a 
leadership, you know, or lack thereof, accountability--holding 
people accountable to the statutes and the premises and 
policies that are being built--connectivity, trust, and things 
associated with that. That is something, you know, in 
partnership with Ms. Wagner, we are earnestly trying to do, and 
certainly with the support of the Secretary of the Department 
of Homeland Security.
    Mr. Green. Thank you, Madam Chair.
    Ms. Harman. Thank you very much, Mr. Green.
    Chair now yields 5 minutes to Mr. Dent, of Pennsylvania.
    Mr. Dent. Thanks, Madam Chair.
    Under Secretary Wagner, in your prepared testimony before 
the Homeland Security Subcommittee of the Appropriations 
Committee on March 4 you stated that as a result of recent 
trends I&A is working closely with its IFC partners to develop 
a framework for analysis of homegrown extremism that is 
consistent with protecting civil rights and civil liberties. 
Could you elaborate on that collaboration?
    Ms. Wagner. Yes, I can. As a result of the Christmas Day 
bombing there were a number of actions that were taken to 
address issues that were identified then, and one of them was 
the DNI tasked I&A Homeland Security to lead an interagency 
effort to, you know, develop a plan to improve our analysis on 
homegrown violent extremism.
    So DHS has taken the lead on that project, working very 
closely with the FBI and NCTC, to put together a plan to 
improve our understanding of the motivations of some of these 
homegrown violent extremists and also to lay out a plan of 
action for interacting more with State and locals to get a 
better understanding of their views of their communities and 
the factors at play there.
    So we are doing this hand-in-glove with our civil rights, 
civil liberties, and privacy officers from the beginning to 
ensure that whatever we put in place is consistent with the--
civil liberties.
    Mr. Dent. What are the other agencies that you are 
partnering with here?
    Ms. Wagner. FBI and NCTC, primarily.
    Mr. Dent. Okay.
    Ms. Wagner. Looking at the international terrorism and the 
domestic terrorism----
    Mr. Dent. What metrics are you using to develop this 
framework?
    Ms. Wagner. I think we are in the process of defining what 
those metrics are now, again, making sure that whatever we are 
going to measure ourselves on is consistent with privacy, civil 
rights, and civil liberties. But I would be happy to come up 
and talk to you about that in the future when those things are 
finalized.
    Mr. Dent. Is the Homeland Security Advisory Council part of 
this framework?
    Ms. Wagner. I don't believe that we have discussed this 
with them yet, no.
    Mr. Dent. I understand that Secretary Napolitano, in 
February 2010, asked the Department's Homeland Security 
Advisory Council to develop recommendations on how DHS can 
develop community-based law enforcement to tackle homegrown 
terrorism. Would you elaborate on the status of that review and 
its recommendations, either one of you? Ms. Wagner.
    Ms. Wagner. I think I will defer to Mr. Johnson on that.
    Mr. Johnson. Yes, the Secretary has asked the Homeland 
Security Advisory Council to look at countering violent 
extremism as it relates to community-orientated policing, the 
buy-in of the community, the understanding of the community in 
very proactive and trusting ways.
    So about a month ago I was fortunate enough to be able to 
interact with major city chiefs, the intel commanders, that was 
started up by Chief Mike Downing and Chief Mike Grossman and 
really elicited a lot of best practices on how they do it, 
because obviously we are not going to solve that within the 
beltway; we need to get back to the boots on the ground, the 
patrol officer, the trooper, the deputy, to understand and have 
the trust and relationship with the public.
    So as it relates to the recommendations, the 
recommendations are nearly complete. I actually had an 
opportunity to review a draft of them the other day. They 
haven't been presented to the Secretary yet so if it is okay I 
would prefer not to illuminate on any of them, but suffice to 
say it covers a number of topics and goes to, I believe, what 
this committee would----
    Ms. Harman. Mr. Dent, would you yield to me for 1 second?
    Mr. Dent. I would.
    Ms. Harman. I would like to request, Mr. Johnson and Ms. 
Wagner, that we be briefed as soon as possible on this 
material.
    Thank you.
    Mr. Dent. Just finally, what is I&A doing, really, to help 
improve our Government's understanding on this whole notion of 
domestic radicalization and extremism?
    Ms. Wagner. I think what we are doing is being done in the 
context of the interagency effort that I just mentioned. We are 
going to be taking a variety of approaches, including looking 
for best practices potentially overseas with our partners, 
reaching out to academia, open source, and leveraging expertise 
wherever we can find it. Again, be happy to talk to you in more 
detail on the details of the plan that we have laid out.
    Ms. Harman. Thank you, Mr. Dent. I just want to commend you 
for raising the privacy and civil liberties issue, and just to 
use the airwaves afforded by this hearing to call on the 
administration, again, to appoint the privacy and civil 
liberties oversight board, which is mandated by the 2004 
intelligence reform law, and which has not been filled--the 
positions for which have not been filled by this 
administration.
    I think that would go a long way to making--toward making 
sure that all the practices we are talking about by fusion 
centers and new regulations and proposed legal remedies comply 
fully with our Constitution. That is something we are all 
concerned with, and so--and I know that you are, too. I would 
just point out also, for the record, that we have had hearings 
in the past with the privacy and civil liberties officers at 
DHS to talk about the need to make sure that on the front end 
policies take account of privacy and civil liberties of law-
abiding citizens.
    In introducing Ms. Clarke, I want to give a shout out to 
the NYPD and the New York State Police. First of all, they did 
a heroic job in connection with the Times Square bomber 
apprehension. But also, they get my attention always since all 
four of my children and all three of my perfect grandchildren 
live in New York City, and I am very glad that they are well-
protected.
    I now yield to Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair, Ranking 
Member McCaul. It is a very timely hearing, and I know that 
there was quite a bit of conversation around the New York City 
Times Square event, but I would like to raise a concern that I 
have.
    I want to add to your equation, Madam Chair, the 
observation and quick thinking of the civilians in this whole 
equation, and I don't think we can underestimate how important 
it is to have the type of campaign we have had going on in New 
York City for quite some time, which is the ``See Something, 
Say Something.'' But having said that, I want to address, you 
know, our thinking around the whole lone actor scenario.
    Following the recent attempted car bombing in New York 
City's Times Square Federal authorities swiftly investigated 
the incident, proving the post-incident counterterrorism 
cooperating across Government is improving. Roughly 53 hours 
after the incident the FBI, New York City Department--Police 
Department and its intelligence officials quickly identified 
and arrested the suspect.
    However, the goal should be to detect and thwart these 
plots--even small-scale plots such as Mr. Shahzad--as early as 
possible. Of course, small-scale attacks would and should be 
handled differently than large-scale attacks. A large-scale 
attack is generally easier to detect because it will involve 
many people and there are more opportunities for someone to 
leak information.
    Clearly, local law enforcement is at the front lines with 
regard to detecting small-scale attacks in our communities. 
However, I want to know, how can we use our National 
intelligence infrastructure--namely the Intelligence Enterprise 
and the newly institutionalized DHS Threat Task Force--to 
better detect the lone actor who may appear normal to his 
neighbors but has been radicalized either in person or by the 
internet?
    Ms. Wagner. I will take this, and then I will see if Mr. 
Johnson has anything to add. I think one of our primary 
missions in terms of the DHS Intelligence Enterprise is to take 
all of the intelligence information on a specific event and put 
that out to State and locals in a way that would be useful for 
them in terms of understanding what were the actions that the 
perpetrator took leading up to the event that could potentially 
be recognized and reported on so that we are in a position 
where, as you point out, we could prevent or disrupt instead of 
respond.
    We have put out numerous products on what we call the 
tactics, techniques, and procedures of how the bombs were 
built, how they were delivered, and any kind of suspicious 
behaviors or activities that could be used by local law 
enforcement to potentially disrupt these attacks. You know, 
in--we have also identified in the past the kinds of things 
that would be bought; I think someone already mentioned the 
example of the hair care products. Fertilizer is obviously a 
key issue that we also alert people on.
    So that is how we approach this problem. I think we do a 
pretty good job of doing that, but we have a training and 
education issue as well, as you point out, not just at the 
local law enforcement, but then within their areas with the 
actual civilians who might see something along the lines of the 
``See Something, Say Something'' campaign.
    I will let Mr. Johnson add his comments.
    Mr. Johnson. As Ms. Wagner referred to, it is important to 
get from the intelligence community those indicators and 
warnings that can be applied to every day practice and law 
enforcement. As I mentioned before and I agree with you--``See 
Something, Say Something''--the importance of that, and to 
articulate to the law enforcement and first responders really 
what to look for.
    So, for example, in New York State, you know, we knew where 
the storage facilities were; we knew who the ammonia nitrate 
distributors were; we knew who was renting large vans and 
things like that; we had the ability to, you know, work with 
law enforcement, the NYPD. In the words of Commissioner Kelly, 
Mr. Shahzad was unremarkable. So that goes to your point, 
ma'am, about how can you detect it before it becomes 
remarkable, and those little indicators and warnings that he 
may very well display.
    To build upon what Ms. Wagner said, also, the criticality 
and the importance of CBP and TSA and ICE and the information 
holdings that they also have, and how do you leverage them to 
really try to identify a person who may be doing other type of 
criminal activity but may also be involved in a terrorist 
activity, and the linkages to the JTTFs. I think they do that 
quite well. A lot of the components do have assets apply to the 
JTTFs and they played a critical role in this, you know, this 
investigation.
    So it is really, you know, right across the board with 
everything that we are doing and everything that you support.
    Ms. Harman. Thank you very much, Ms. Clarke.
    As everyone knows, this line of questions and this 
information is central to what this subcommittee cares about. 
New York City and New York State are very sophisticated and 
very well-resourced in terms of their law enforcement and 
public awareness effort. Our hope is that other States--all 
other States--will get up to speed, too. Obviously California 
is doing pretty well--especially Southern California--but 
terror attacks could occur anywhere, anytime, and the whole 
country needs to be protected, not just parts of the country.
    Now I yield 5 minutes to Ms. Richardson for questions.
    Ms. Richardson. Thank you, Madam Chair.
    Mr. Johnson, I understand that the I&A analysts receive the 
opportunity to attend training offered to and by other members 
of the intelligence community. To what extent does the I&A 
facilitate DHS component intelligence analysts to participate 
in these types of training?
    Mr. Johnson. First and foremost, you know, Dawn Scalise--
she has been assigned from the Central Intelligence Agency. She 
has been on, I think, since September. She brings to bear a 
considerable amount of experience as it relates to analytical 
capabilities, and she is in the process and has implemented a 
number of programs, to include mentoring a lot of the young 
analysts, training a lot of the young analysts. Before Mr. Mike 
Morell became the deputy director she had been interacting with 
him on a regular basis to do exactly what you just described 
about the cross-fertilization of analysts and training and 
experiences and exposures.
    But also, equally important is the relationship with the 
field and the analysts from the field, and the first week of 
June we are going to be bringing in some analysts from the 
field--from the fusion centers--to share with us their 
experiences and also have them share with us, you know, a lot 
of the best practices and some of the information that they 
need.
    Under the leadership of Ms. Wagner, she is also exacting 
training as it relates to sourcing and citing and all the 
elements that make up what the ODNI has been doing with Dr. 
Peter Lavoy and a lot of the expertise resident within there.
    I would also defer to Ms. Wagner as it relates to, you 
know, some of the efforts that she is undertaking and directing 
within I&A.
    Ms. Wagner. I would just add that we do work hard to 
provide--make training available to the components so that the 
analysts in the different Department operational elements have 
access to training that helps them understand how to leverage 
the intelligence community and how to interact with the rest of 
the intelligence elements of the Department. We are working 
with them as part of the Homeland Security Intelligence Council 
to understand what other training requirements they might have 
that I&A then could meet as part of our service to the DHS 
Intelligence Enterprise.
    Ms. Richardson. Would it be accurate to say that the 
analysts have a list of all the training that is available?
    Ms. Wagner. I believe they do. I think it is posted and 
they have access to it. We are able to take advantage of any 
courses that are offered by the intelligence community, so 
there is a very full roster of possibilities.
    Ms. Richardson. Would you verify to this committee that, in 
fact, the analysts are aware and have received information of 
what is available to them?
    Ms. Wagner. I will certainly go back and confirm that all 
of the courses are posted where they can have access to it and 
that they know that.
    Ms. Richardson. That they are aware that that is where it 
is.
    Ms. Wagner. Yes, ma'am.
    Ms. Richardson. Okay. Thank you.
    For this next question--I apologize, I came in a few 
minutes late; I was presenting in the Jobs Task Force, so if it 
was asked I apologize--what is the progress in getting the next 
generation systems, such as the HSIN 2.0 and the HTSN on-line? 
That seemed to be a big bulk of----
    Ms. Wagner. Flip a coin on this----
    One of the areas that I am trying to focus on now working 
very closely with Mr. Johnson is trying to solidify the 
information architecture to serve the enterprise, both at the 
SCI level, which is the HTSN, at the secret level, and at the 
unclassified level. I think we are making progress in 
understanding where we want to go, but there is still room for 
improvement in terms of the speed with which we are 
implementing some of these solutions. In terms of any more 
details, I probably have to defer to Bart.
    Mr. Johnson. Ms. Wagner has been meeting with Richard 
Spiers, the chief information officer, over the past couple 
months, and that is certainly a partnership that is developing 
as it relates to his expertise along with our responsibilities 
for those classified systems. We are working, also, with Ms. 
Sue Reingold, at the program manager's office, for the 
information-sharing environment at the secret level to make 
sure that those systems are sustainable and they contain within 
them the information that is required.
    If you recall, back in September I gave a little bit of an 
overview about our efforts to get more information that is 
resident on sippernet as it relates to helpful tactics and 
techniques and plans for not only the components but for the 
fusion centers regarding VBIEDs, TATP, and really some of the 
materials that go into making them. To your point about HISN, 
we are currently working with HSSLIC, the Homeland Security 
State and Local Information Committee, and right now we are 
working with Ops, Operations, and NOC, the National Operations 
Center, to transition it to Next Gen. We are----
    Ms. Richardson. Excuse me. I apologize. My time has 
expired. But what I wanted to make sure you answer the question 
was, when do you expect it to be on-line?
    Mr. Johnson. HISN Next Gen? That is going to be over the 
next year or so, and we are taking it very carefully because we 
don't want to diminish any of the services that are available 
on HSSLIC right now. However, other organizations have already 
been transferred over to Next Gen and we are just monitoring 
and watching it for the partners and the components.
    Ms. Richardson. Thank you very much.
    Thank you, Madam Chair.
    Ms. Harman. Thank you, Ms. Richardson.
    We have discussed whether to go to a brief second round of 
questions, and we are planning to do that. I will start with 
me, and if you are both interested in doing that, please stay.
    First of all, on Ms.--to follow up on Ms. Richardson's 
question, I would strongly urge that you consult the users of 
these on-line services. We learned when we did a number of 
field visits to fusion centers around the country that they 
were not using some of the homeland products because they found 
other products to be much more effective.
    The goal is not just to consult horizontally in Washington, 
DC. The goal is to make sure that information sharing 
vertically works. Therefore, I would urge you--and I know this 
is something you would instinctively do, Mr. Johnson--but to 
consult carefully to make sure that your new products will be 
well received. Thank you.
    Let me ask you two questions that Mr. Thompson had planned 
to ask if he had been able to stay for the rest of this 
session. First of all, he mentioned in his opening remarks that 
Rand Beers has now been named the top counterterrorism official 
for the Department. He, Rand Beers, was part of the panel that 
briefed us last week on the New York City bombing.
    The question is, Ms. Wagner, what is his relationship with 
you with respect to--how does his appointment as chief 
counterterrorism official to the Department affect your duties 
as the chief intelligence officer? Do you now report to him, or 
do you work on parallel tracks? You know, why aren't you the 
counterterrorism official for the Department?
    Ms. Wagner. Well, I would characterize my relationship with 
Rand as being, we are partners. He is, you know, as we all 
know, a distinguished public servant. We discussed as a 
Department in the recent bottom-up review process that we are 
doing in the wake of the Quadrennial Homeland Security Review 
how many of us have terrorism as a key element of our mission, 
and it ends up being almost every component and departmental 
element of the Department.
    So the Secretary wanted to ensure that we had an effective 
mechanism for pulling all those pieces together and she 
appointed Rand to be the CT coordinator. So no, I don't report 
to him, but I work very closely with him. In fact, we do 
function as partners. When the Secretary goes to the White 
House for the terrorism briefing, if he doesn't go I go, and he 
actually took the briefing yesterday because I was testifying 
in front of the Senate Select Committee on Intelligence on my 
budget at the time.
    So I think we have a very constructive relationship and 
what we are both trying to do is to serve the Secretary as best 
we can to make sure that all of the elements that are focused 
on counterterrorism are rowing in the same direction.
    Ms. Harman. Your answer makes me smile, since we have that 
problem up here. We have counterterrorism subcommittees of 
every committee, and this is the only committee called ``The 
Homeland Security Committee.'' I think we are somewhat 
jurisdiction-starved, so I get it, that there is a need to 
coordinate, and I understand better. I have known Rand Beers 
personally for years and think he is a very capable fellow.
    But the bottom line here is, we don't want big org charts 
and people doing duplicative functions; we want straight, fast 
info sharing, right? Okay.
    The second question that the Chairman would have asked is 
about the use of outside Federal contractors. I remember being 
appalled to learn that the ratio was 60/40, outside to inside, 
or maybe even worse. Mr. Johnson, you pledged 8 months ago to 
help fix that. I think the goal was to get to 40/60, which is 
still not terrific. Where are we?
    Ms. Wagner. Well, I think Mr. Johnson had already made 
considerable progress when I came on board. We are moving in 
the right direction but we are only down to about 55 percent, 
now. It has dropped 15 percent since the beginning of the 
fiscal year. I am working----
    Ms. Harman. Excuse me, 55 percent what?
    Ms. Wagner. Fifty-five percent contractors.
    Ms. Harman. So it is 55/45?
    Ms. Wagner. Down from 60 percent to 55 percent, a 15 
percent reduction since the beginning of the fiscal year. We 
are looking very hard----
    Ms. Harman. Excuse me, maybe I can't add. How is 60 to 55 a 
15 percent reduction?
    Ms. Wagner. It was 60 percent; it is now 55 percent. So it 
was a 15 percent reduction in total contractors on the----
    Ms. Harman. Thank you.
    Ms. Wagner [continuing]. From the beginning of the fiscal 
year. We are looking very hard at seeing where we can make 
further reductions, but I must be honest that with the amount 
of work to be done, unless I can figure out a way to 
dramatically increase my level--my rate of hiring of Government 
employees, it will be difficult to draw down too much too 
quickly.
    We are working very hard to remedy this ratio. Bart and I 
are doing everything we can to micromanage the hiring process, 
and we are working with our Department to try to advocate for 
direct hire authority from OPM to allow us to make some headway 
on these billets, because we all know there are too many vacant 
billets and we are trying to address that problem.
    Ms. Harman. Right. Well, I think my time has expired, but 
this is an administration-wide problem, and it has huge 
implications for I&A, which you know, and again, for your--for 
successfully achieving your mission.
    I now yield to Mr. McCaul.
    Mr. McCaul. Thank you, Madam Chair. I have a couple of 
organizational questions to add on the last questions I asked, 
but I do want to just focus on the specific cases.
    Hasan, we had threat information prior to the incident and 
intelligence coming in. In the Christmas bomber case we did. Is 
it your testimony that in the Times Square bomber there was 
really nothing we could have done to have prevented that?
    Ms. Wagner. He was not watch-listed, and I think that he is 
an example of a new paradigm--a difficult paradigm--that we are 
having to deal with of individuals who are mounting very small-
scale, unsophisticated attacks without having a great deal of 
communication or support from others, necessarily, although 
obviously this investigation is still on-going and----
    Mr. McCaul. I agree that that is a challenge. They have 
indicated they are going to smaller-scale attacks and it is 
very difficult to detect this prior to prevent it. I know he 
went to Pakistan, and perhaps that was looked at, but there was 
nothing further to indicate that he would be a threat in any 
way?
    Ms. Wagner. There are many, many tens--I don't even know 
how large the number is--of people that go to Pakistan 
regularly, so there--no, we need a little bit more than that.
    Mr. McCaul. This may be a little bit out of I&A's 
jurisdiction, but the no-fly list, UAE did not have him down. 
It wasn't refreshed every 12 hours; now it is down to 2 hours 
they will refresh that, is that correct?
    Was there an alert that was sent out, though? It seems to 
me in this type of case that an alert should have been sent out 
to all the airlines saying, ``Don't let this guy get on a 
plane.''
    Ms. Wagner. He was, as you point out, expedited onto the 
no-fly list, and unfortunately the airlines under the previous 
rules were only required to update that information I believe 
it was every 12 hours. So the new rule that TSA is putting in 
place will require them to update those expedited no-flys every 
2 hours----
    Mr. McCaul. Every 2 hours, but can't you send out an alert 
separately just saying, ``Special alert,'' you know?
    Ms. Wagner. I believe that those are the special alert. But 
again, if we had----
    Mr. McCaul [continuing]. Refresh----
    Ms. Wagner. But when the Secure Flight system is completely 
implemented, we will not have this problem any longer. It will 
be automatic.
    Mr. McCaul. That is the good news here.
    Two quick issues, and they are big: One, tripling the 
intelligence agents representatives down on the southwest 
border, that was--the Secretary said that that was going to be 
done. Can you update me on that?
    Then the second one on cybersecurity. This is one of those 
issues that a lot of people--it is not on their radar screen, 
but I consider it to be one of the biggest threats that we have 
to our National security. Can you tell me what you are doing in 
that regard, too?
    Ms. Wagner. Yes. Cybersecurity, and it was tripling of 
the----
    Mr. McCaul. We were told that--basically that there would 
be a tripling of the intelligence analysts down on the 
southwest border. Has that occurred yet, and what is happening 
down there?
    Ms. Wagner. I think its--whether it is officially tripling 
I do not know, but we have substantially increased the level of 
intelligence support that we have located within the El Paso 
Intelligence Center. We now have, I believe, 12 people on our 
homeland intelligence support team down there doing analytic 
support to the operational elements on the border.
    We have also added a collection manager, with another en 
route to assist in working with the intelligence community to 
leverage their capabilities in support of the operation. We 
have got a network of State and local fusion centers, HIDAs, 
elements of DOJ, DOD, everybody working together, and we are 
trying now to formalize sort of the new interagency 
intelligence coordination body at IPIC, which is being worked 
at the highest level with CBP, ICE, DEA, and us.
    Mr. McCaul. That is good. Because as you know, it is 
getting very dangerous down there.
    Ms. Wagner. Yes.
    Mr. McCaul. Cybersecurity? I only have about 35 seconds.
    Ms. Wagner. Cybersecurity is--we have created that as a 
major mission area within the Department as part of the 
Quadrennial Homeland Security Review, and we work very closely 
with NPPD, with Rand Beers and Phil Reidinger, specifically, to 
figure out what intelligence support to bring to bear for their 
responsibilities to secure the dot-gov network.
    We are attempting to increase the level of cybersecurity 
analysis we are doing to look at this unique source of data 
that we have within the Department--the CERT data--and try to 
see if we can improve our ability to do predictive analysis and 
attribution.
    Mr. McCaul. That is good. That is very good.
    Thank you.
    Ms. Harman. Thank you, Mr. McCaul.
    Ms. Clarke.
    Ms. Clarke. Ms. Wagner, I just wanted to bring to your 
attention that for quite some time we have been hearing about 
the deployment of Secure Flight--at least since I have been in 
Congress, and I was elected and started here--elected in 2006 
and started here in 2007. During that time we have had a number 
of events that we keep referring back to when we have Secure 
Flight up and running.
    Do you have a sense at all of when Secure Flight will 
actually be deployed in its full glory with the capability of 
doing everything that we expect it will do?
    Ms. Wagner. Ma'am, I actually would prefer to defer that 
question to TSA----
    Ms. Clarke. Okay.
    Ms. Wagner [continuing]. To come and speak to you, because 
it is not really an intelligence issue; it is more of a 
Departmental issue----
    Ms. Clarke. Yes.
    Ms. Wagner [continuing]. And I don't have the exact date.
    Ms. Clarke. But it would seem to me that it would be a 
major tool for the intelligence community.
    Ms. Wagner. It will be a major tool for the homeland 
security and law enforcement communities, and it will certainly 
assist us in ensuring that the no-fly information is acted on 
immediately.
    Ms. Clarke. So it just seems to me that there should be 
some urgency in everyone's mind around the Secure Flight 
program. I will share that with you because, you know, you 
raised this with Mr. McCaul, which is the issue of the fact 
that we have thousands of people that fly to Pakistan every 
year, if not tens of thousands.
    Many of the folks who fly to Pakistan every year come from 
my district. If we are going to get really solid intelligence 
it is like finding a needle in a haystack when you have a 
system that doesn't weed out the bad actors from the 
misidentifications from folks who we really know are out there 
to do our Nation harm.
    So I just raise that because I think there needs to be a 
clarion call coming from every part of the homeland security 
community that is relying on clear intelligence that this 
program be expedited. But having said that, that is just my own 
pet peeve.
    I want to ask about the costs associated with building 
secure spaces that are needed for the installation of 
information sharing technology systems. Many fusion centers do 
not have connectivity to secret--excuse me, connectivity to 
secret-level DHS networks. However, TSA uses storable, secure 
laptops and devices, allowing the TSOs to access classified 
networks from remote locations.
    To what extent has I&A looked into this option or a similar 
way of providing access to secure networks for fusion centers?
    Ms. Wagner. Thank you for that question. If I could go back 
to your previous question just for a moment, because my TSA 
colleague has just given me some information to pass on, which 
is that there is going to be a briefing for Members tomorrow on 
this topic, that they are expecting the Secure Flight to be 
implemented domestically in early summer and internationally by 
the end of the calendar year.
    On to your question about secure coms, we--as I think Mr. 
Johnson mentioned earlier, and I will let him add his remarks 
to this--we are looking at an overall secret-level architecture 
to support not just the components but also the State and local 
fusion centers.
    We know that TSA has had some success with their Trace 
architecture, which uses the talon card, and we are looking at 
whether or not there are circumstances where it would make 
sense for us to employ that.
    We don't necessarily view it as a substitute for getting 
our HSDN secret connectivity because it doesn't have all the 
same functionality, and it does have some disadvantages 
associated with its use in terms of it has to be locked--you 
know, the card has to be locked in a safe, and there are some, 
you know, security issues that you have to weigh in the 
balance. But we do believe that it is possible that for some of 
our folks it would be a good interim solution, and we are 
reviewing that.
    Mr. Johnson. Additionally, we have accelerated the 
deployment of HSDN to the field, and you are exactly right 
about the need to build out secure space, secure coms. So we 
are pretty optimistic by the end of the year we will have 64 
HSDN terminals deployed to those fusion centers capable of 
receiving it.
    Another critical thing is the components and their ability 
to have HSDN and give them the connectivity that they need. I 
recall using Trace back in 2004 during the RNC in New York 
City, and it is effective, but yes, it is a stop-gap, and we 
are not going to rely on that to be the final solution. We want 
to roll out HSDN as effectively as we can.
    Ms. Clarke. Thank you very much, Madam Chair. Thank you.
    Ms. Harman. Thank you, Ms. Clarke.
    Thank you, Mr. McCaul.
    Again, I thank the witnesses for their valuable testimony, 
and the Members for their brilliant questions.
    This partnership has been going on a long while and we 
expect it to continue. We need this partnership to work. Our 
country will not be safe if it doesn't work. Our country still 
may face future attacks, but the chances of that are somewhat 
reduced if this partnership is robust and successful.
    So I thank you, Ms. Wagner, for agreeing to submit some 
additional information for the record. That was requested, and 
I strongly support it, and if there is a loophole--we were 
exploring this--we obviously want to work with you to close it.
    Having no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
